     Peace Corps
     Office of Inspector General
 




           Housing Compound in Swaziland




                  Flag of Swaziland



    FINAL AUDIT REPORT IG-09-01-A
         Peace Corps/Swaziland

             November 2008
  Final Audit Report:
 Peace Corps/Swaziland
      IG-09-01-A




____________________________________
          Gerald P. Montoya
Assistant Inspector General for Audits




         November 2008
                           EXECUTIVE SUMMARY

Peace Corps/Swaziland’s financial and administrative operations were generally
functioning effectively and complied with agency policy and federal regulations.
We found no reportable conditions in the areas of post’s filing system, imprest fund
verification, International Cooperative Administrative Support Services (ICASS),
communications and IT Security. However, we identified some areas that need
improvement. The more significant findings are summarized below.

Obligations
The post approved and recorded travel-related obligations after the travel occurred.

Imprest Fund
The cashier did not personally set the combination to her safe. Imprest funds were not
kept in cash boxes within the safe in accordance with Peace Corps policy.

Property Management
The general services assistant maintained the inventory records and also performed the
physical inventory. Receipting for issuing and returning loaned non-expendable property
was inconsistent.

Medical Supplies
Medical inventory was not accurately or consistently maintained and physical
verifications were not performed monthly. Separation of duties was inadequate and
disposals were not documented.

Purchase Card
Purchases made with the post’s purchase card were not approved before they were made.

Host Country Contributions
Valuation of post's in-kind host country contributions was not documented.

The section “Post Staffing” includes a summary of comments from post staff and
Volunteers whom we interviewed.

Our report contains 22 recommendations, which, if implemented, should strengthen
internal controls and correct the deficiencies detailed in the accompanying report.




Final Audit Report: Peace Corps/Swaziland                                                i
                                                  TABLE OF CONTENTS

EXECUTIVE SUMMARY .......................................................................................................... i

INTRODUCTION .................................................................................................................... 1

AUDIT RESULTS ................................................................................................................... 1
     ACCOUNTING FOR OBLIGATIONS AND LIQUIDATIONS .............................................................................. 2

     VOLUNTEER ALLOWANCES ...................................................................................................................... 3

     BILLINGS AND COLLECTIONS ................................................................................................................... 4

     HOST COUNTRY CONTRIBUTIONS ............................................................................................................ 5

     IMPREST FUND ......................................................................................................................................... 6

     PROPERTY MANAGEMENT........................................................................................................................ 7

     MEDICAL SUPPLIES .................................................................................................................................. 8

     VEHICLE MANAGEMENT ........................................................................................................................ 12

     TRAVEL .................................................................................................................................................. 12

     PURCHASE CARD ................................................................................................................................... 13

     TIMEKEEPING ......................................................................................................................................... 14

     PERSONAL SERVICES CONTRACTS ......................................................................................................... 15


OTHER MATTERS ............................................................................................................... 17

POST STAFFING .................................................................................................................. 18

LIST OF RECOMMENDATIONS ............................................................................................. 19

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY

APPENDIX B: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT

APPENDIX C: OIG COMMENTS

APPENDIX D: AUDIT COMPLETION AND OIG CONTACT
                                      INTRODUCTION

The Office of Inspector General conducted an audit of Peace Corps/Swaziland June
9 – July 1, 2008. We have not conducted an audit of the post since its reopening in 2003.

The Peace Corps began its program in Swaziland in 1969. Post operations were closed in
1996 due to budgetary constraints and reopened in 2003. Five staff members have been
with Peace Corps since its reopening. At the time of our visit, 32 Volunteers were
working in the health sector’s HIV/AIDS Prevention and Mitigation project.

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations were functioning effectively and complying with Peace Corps
policies and federal regulations. Appendix A provides a full description of our audit
objective, scope, and methodology.



                                      AUDIT RESULTS

Peace Corps/Swaziland’s financial and administrative operations were generally
operating effectively. We found no reportable conditions in the areas of post’s filing
system, imprest fund verification, ICASS, communications and IT Security. However,
the post’s compliance with Peace Corps policies and federal regulations in other areas
required some improvement.

Administrative Operations
The post approved and recorded obligations after the related expenditure occurred. The
cashier did not personally set the combination to her safe. In addition, purchases made
with the post’s purchase card were not approved before they were made.

Internal Controls
The post lacked segregation of duties between billing and collection activities and
between maintaining inventory and conducting the physical verification count. Further,
receipts were not used in issuing non-expendable property and disposals of medical
supplies were not documented.

Volunteer Support
The post did not appropriately close out finances for one Volunteer who terminated
service out of country.




Final Audit Report: Peace Corps/Swaziland                                                 1
ACCOUNTING FOR OBLIGATIONS AND LIQUIDATIONS

Obligations were not recorded until after travel was initiated.

Overseas Financial Management Handbook (OFMH) section 32.3 states that an
obligation is a firm reservation of funds that creates a legal liability on the government
for the payment of goods or services ordered. In general terms, the obligation must
indicate the requirement (goods/services/other), the vendor, and the cost, and be
authorized by staff with delegated procurement authority. For accounting purposes, the
term "obligation" includes goods and services that have been ordered, but which may or
may not have been received. The obligation is made using funds available at the time the
order is placed or contract executed, even though payment may take place in a future
fiscal year. Documents used for obligation include contracts, leases, purchase orders, and
travel authorizations.

Peace Corps Manual (PCM) section 753.4.1 states:
        The controls at Post must be adequate to assure that neither over
        obligations nor over expenditures occurs both within limitations placed on
        line items and on the overall amounts available in sections or the budget in
        total.

OFMH sections 57.2 and 60.2 state the steps to be taken in establishing travel
authorizations at the beginning of the year, including obligating the amounts in
FOR Post.

We found that expenses for Volunteer and staff travel were incurred prior to obligating
funds. Of 26 travel obligations reviewed, eight (three Volunteer and five staff) included
travel for which no obligation was recorded in advance of travel.

The administrative officer stated that obligations for Volunteer travel were made only
once monthly, in conjunction with ordering the living allowance check.

The post should not commit U.S. government funds without ensuring that they are
available. Making or authorizing an expenditure from any appropriation or fund in
excess of the amount available could potentially result in a violation of the Anti-
Deficiency Act.


                 We recommend:

                 1. That the administrative officer ensure that all
                    obligations are recorded before the related expenditure
                    of funds takes place.




Final Audit Report: Peace Corps/Swaziland                                                   2
The administrative unit did not maintain supporting documentation for some
obligations.

OFMH section 32.3 states:
        Documents used for obligation[s] include contracts, leases, purchase
        orders, and travel authorizations. Whenever the PC-2060 is used as the
        obligating document, relevant supporting documentation should be
        attached.

Seven of 15 obligations reviewed did not have supporting documentation attached for the
obligated amounts, such as quotations, pro-forma invoices, or written documentation of
the post’s estimations.

As a result, we could not determine whether the obligated amounts for the seven
obligations lacking support were reasonable and in accordance with the post’s Operating
Plan.


                 We recommend:

                 2. That the administrative officer ensure that all
                    obligations and de-obligations are supported by fully
                    documented calculations, written explanations, and
                    other support.


VOLUNTEER ALLOWANCES

The administrative unit did not properly settle the finances of a stateside Volunteer
termination in accordance with Peace Corps policy.

PCM section 221.5.9 states:
        At the time of a Volunteer's departure from post, any overpayments of in-
        country Volunteer allowances should be collected directly from the
        Volunteer or recipient bank, if the Volunteer has already departed post.
        Overpayments should be recovered by the Collections Officer at the
        overseas post, who shall issue a receipt upon payment.

OFMH section 7.2.1 states that the first step in the billing process is to “determine
the amount owed based on…Allowance overpayments to Volunteers…”

During our review of Volunteer allowances, we found that one Volunteer whose service
was interrupted while out of country was not billed emalangeni 1,825.99 (approximately
$240), for overpaid living allowance. This occurred because the post collected the
balance of the Volunteer’s personal in-country bank account but did not determine the


Final Audit Report: Peace Corps/Swaziland                                                 3
number of days the allowance was paid in comparison to how many should have been
paid and calculate the amount owed resulting from the overpayment.

Because the post did not follow normal policies and procedures in place to reconcile
Volunteer allowance accounts at termination of service a debt went unbilled and was not
noticed by staff responsible for billing. It is important that all Volunteer allowance
accounts be promptly reconciled at service termination so that any amounts due the Peace
Corps or owed to a Volunteer can be determined and collected or paid in a timely
manner.


                 We recommend:

                 3. That the administrative officer follow the established
                    Peace Corps policies and procedures for closing out the
                    finances of Volunteers terminating service out of
                    country.


BILLINGS AND COLLECTIONS

The post did not have adequate separation of duties in billing and collections.

OFMH section 7.1 requires posts to maintain separation of responsibilities in the
performance of billing and collection functions to ensure that adequate internal controls
are in place. Further, OFMH section 7.2.1 provides that billing officers monitor the Bills
of Collections (BOC) account and prepare a reminder for any BOCs that have been
outstanding for 30 days.

The post reported that the cashier was responsible for reminding debtors to pay their
outstanding bills. However, this practice is a violation of Peace Corps policy regarding
separation of duties.

Having adequate separation of duties between duties and responsibilities related to billing
and collection functions minimizes risks that funds could be lost through
misappropriation.


                 We recommend:

                 4. That the administrative officer transfer the
                    responsibility for issuing follow-up bills for unpaid
                    BOCs older than 30 days from the cashier to the billing
                    officer in accordance with OFMH section 7.2.1.




Final Audit Report: Peace Corps/Swaziland                                                  4
HOST COUNTRY CONTRIBUTIONS

The valuation basis of post's in-kind host country contributions was not documented.

According to PCM section 722.7.2.1:

        The recorded value of in-kind contributions shall be based on a rational
        estimate of the cost of the contributed supplies or services to the Peace
        Corps. The following are acceptable bases for making estimates:
        •    The actual cost to the Peace Corps of purchasing similar supplies or
             services in the same time period;
        •    The documented cost to other organizations (Embassy, USAID,
             PVO’s) of purchasing similar supplies or services in the same time
             period; and
        •    A survey of the local offering price for similar supplies or services.
             Such a survey may be made informally, but should be documented at
             the time.

The post did not document the basis for valuing in-kind host country contributions in its
Operating Plan. Although the country director, who formerly served as the
administrative officer at the post, was able to explain her basis for having valued the in-
kind contributions for fiscal year 2008, this information was not documented. As a
result, the current administrative officer had no supporting documentation for the
valuations that were presented in the Operations Plan. During the audit, the country
director documented her basis of valuation for in-kind contributions for fiscal year 2008,
noting her references and bases for conclusions.

Because the inclusion of host country contributions in the post’s Operating Plan reflects
all available resources used to operate the post, it is necessary to document the basis upon
which the post values the contributions.


                 We recommend:

                 5. That the administrative officer document, in a
                    memorandum to the host country contribution file, the
                    basis for valuation of in-kind host country contributions
                    as presented in the FY 2009 Operations Plan.




Final Audit Report: Peace Corps/Swaziland                                                     5
IMPREST FUND

The cashier did not personally set the combination to the imprest fund safe.

PCM section 760.9.4 states "The cashier must personally set the combination to the safe.
The security officer or technician is not authorized to set or know the combination of the
safe. The cashier must memorize the lock combination for the safe or other security
lock..."

The U.S. Department of State Foreign Affairs Handbook (4 FAH-3 H-317.3-2) states:

        The lock combination is changed by the employee to whom the equipment
        is assigned. When an employee having knowledge of a combination is
        succeeded in office, the successor employee changes the combination.
        When, due to emergency conditions, the safe is opened in the absence of
        the responsible employee, the responsible employee upon return to duty
        immediately changes the combination, and verifies the funds.
        It is the responsibility of the resident regional security officer or the post
        security officer to instruct the responsible employee in the technique for
        changing the safe combination.

Contrary to Peace Corps and State Department policy, the post relied on a representative
from the U.S. embassy’s regional security office to change the safe combination annually
because the cashier did not know how to change it.

As cashiers are responsible for security over the imprest fund they must be able to
efficiently change the safe combination annually, in instances where the fund is
temporarily transferred to an alternate cashier, or whenever else she deems it is
appropriate and necessary, without depending on the availability of an outside party.


                 We recommend:

                 6. That the country director request that a representative of
                    the Embassy regional security office provide training to
                    ensure that the cashier is proficient in changing the safe
                    combination.


Imprest funds were not kept in cash boxes within the safe in accordance with Peace
Corps policy.

PCM section 760.9.5 states that “each cashier should maintain a cash box with its own
key or combination lock.” PCM section 760.9.5.1 states, “if a post operates with both
dollar and local currency funds, the two funds must be kept in separate cash boxes,
accounted for separately, and must not be intermingled.”


Final Audit Report: Peace Corps/Swaziland                                                    6
Cash was kept lose within the safe drawers rather than within lockable cash boxes. The
cash tray in which the cashier kept the local currency remained atop the safe and was
exposed to view during cashier hours. In addition, the day before the cashier was to
travel off site with cash to pay allowances to Trainees, she did not have a plan for
safeguarding the funds while outside of the cashier’s cage.

The cashier did not have lockable cash boxes for each of the currencies in accordance
with policies. However, the post did subsequently obtain a small lockable cash box and
provided it to the cashier to transport the Trainee allowances.

To minimize risks associated with theft, all funds should be kept out of sight and secured
in accordance with Peace Corps policy.


                 We recommend:

                 7. That the cashier obtain lockable cash boxes to secure
                    both U.S. and local currencies used in the operation of
                    the imprest fund.


PROPERTY MANAGEMENT

The post did not maintain adequate separation of duties over management of the
property inventory records and performance of the physical inventory verification.

PCM section 511.5.6 states that the property inventory physical count and verification
should be conducted by an individual other than the property officer.

We found that the general services assistant maintained the property inventory records
and also conducted the annual physical inventory verification. In addition, U.S. direct
hire staff members were occasionally performing the inventory counts within their own
residences.

The general services assistant was unaware of the need for these duties to be segregated.

Effective internal control requires that the individual conducting the inventory count be
independent of the inventory management and recording process. The inventory
verification validates the accuracy of the Peace Corps property inventory records.


                 We recommend:

                 8. That the administrative officer segregate the duties of
                    maintaining the inventory records and conducting the
                    annual physical inventory count and verification.


Final Audit Report: Peace Corps/Swaziland                                                   7
The post did not implement controls for assigning Peace Corps property to Volunteers
and staff in accordance with agency policy.

PCM section 511.6.2 and the related Attachment A explain the process to be used when
issuing Peace Corps property to employees, contract staff, or Volunteers. Custody
receipts are required when releasing non-expendable property to Volunteers, staff, or
contractors.

The general services assistant and the information technology specialist were responsible
for distributing Peace Corps non-expendable highly pilferable property. We found that,
other than for cell phones, the post was not maintaining appropriate inventory tracking
control over Peace Corps property loaned to staff and Volunteers. The general services
assistant stated that Peace Corps property loaned to Volunteers, such as water filters and
bicycles, is considered homogenous. Therefore, Volunteers were not asked to sign
individual items out. The property was only tracked when Volunteers returned it to the
post at their close of service. Further, there was no process in place to ensure that all
property maintained by the IT specialist was signed in and out. For example, the IT
specialist did not require that staff sign out such valuable inventory as cameras and a
projector. Although staff did sign request forms for loaner laptops, the IT specialist did
not document when the laptops were returned to him.

Because there was not a sufficiently documented chain of custody for Peace Corps
property, staff or Volunteers who have returned property may inappropriately be held
liable for loss or damage. Additionally, staff or Volunteers who have accepted custody of
Peace Corps property may not be held accountable.


                 We recommend:

                 9. That the country director ensure that the post follow
                    Peace Corps policy regarding implementation of
                    controls over the issuance of Peace Corps property to
                    Volunteers and staff.


MEDICAL SUPPLIES

Medical inventory was not accurately or consistently maintained.

PCM section 734.2.1.6 and Medical Technical Guideline 200.6 state: “The PCMO [Peace
Corps Medical Officer] is responsible for establishing the accuracy of inventories,
maintaining appropriate controls, and ensuring the proper usage of all medical supplies
and equipment.”

We performed a test count using a judgmental sample of 32 medical inventory items and
found 20 (62.5%) instances of errors or inconsistencies:


Final Audit Report: Peace Corps/Swaziland                                                8
   Number of Items                          Description of Deficiencies Found

                           Items were found to exist in the inventory but not on the
             8
                           inventory records.
                           Counts recorded in the inventory records were not in accordance
             5
                           with PCMO’s stated practice for counting open containers.
                           Description of the item appearing in the inventory records did not
             2
                           match the item kept in the actual inventory.
             1             Physical test count did not match inventory records.
                           Other: Counts recorded in the inventory records were not
             4             reflective of disposition according to the PCMO and Medical
                           Assistant.


In addition, we found that the medical unit tracked medical inventory using three separate
documents: (1) records for pharmaceuticals maintained manually in a binder; (2) a listing
for the medical supplies room maintained in electronic format; and (3) a listing for the
outside storage area, also maintained in electronic format. In one case, the medical unit
could not locate an item selected in our judgmental sample on the supplies listing;
however the auditor subsequently located the item listed in the pharmaceuticals binder.

To better serve the Volunteers and to maintain greater efficiencies within the medical
unit, it is essential that an accurate and complete medical supplies inventory listing be
consistently maintained.


                 We recommend:

                 10. That the PCMO establish and implement a written
                     policy regarding counting open containers.

                 11. That the PCMO ensure that the inventory listing is
                     updated, including making entries on a new page to
                     reflect different descriptive identifiers in cases where
                     new items received will replace existing items.

                 12. That the PCMO establish a single accurate and
                     complete inventory listing.




Final Audit Report: Peace Corps/Swaziland                                                   9
A medical supplies inventory count was not performed monthly.

According to PCM section 734.2.1.6:

        The PCMO is responsible for establishing the accuracy of inventories… a
        general inventory of supplies must be taken at least every month by the
        Country Director or designee. The PCMO/PCMC must inventory
        controlled medical substances monthly.

We found that inventories of medical supplies were not performed in accordance with
Peace Corps policy. Our review of inventory records disclosed that a physical inventory
was performed only once in 2007 and four times in 2006. However, with one exception,
we noted that inventories were being performed monthly in 2008.

Monthly inventory counts enable posts to maintain accurate inventory records, assist with
identification and timely disposal of expired items and indicate when orders of additional
supplies are needed. Not performing periodic counts to confirm the existence of
inventory allows for the misappropriation of assets to go unnoticed.


                 We recommend:

                 13. That the country director or designee consistently
                     perform monthly medical inventory counts.


The post did not maintain adequate separation of duties over its medical supplies.

According to PCM section 734.2.1.6:

        The PCMO is responsible for establishing the accuracy of inventories… a
        general inventory of supplies must be taken at least every month by the
        Country Director or designee. The PCMO/ PCMC must inventory
        controlled medical substances monthly.

There was inadequate separation of duties between the staff members who ordered,
received, and tracked the inventory and those who performed the periodic inventory
counts. We found that the PCMO and medical assistant were performing the periodic
medical supplies inventories together. The medical assistant was also responsible for
updating inventory tracking documents, receiving medical supplies shipments, physically
placing those items in the storage areas, creating the disposal listing and transporting
expired supplies for disposal. The PCMO also had full access to the inventory tracking
documents.

The medical staff indicated that they were unaware of the necessity to separate these
duties.



Final Audit Report: Peace Corps/Swaziland                                               10
The country director’s designee must be independent of the inventory receipt,
distribution, and recording process. Inventory verifications validate the accuracy of the
Peace Corps medical inventory records and minimize risks related to pilferage or other
causes for inventory loss.


                 We recommend:

                 14. That the country director or designee outside of the
                     medical office conduct the monthly inventory counts of
                     medical supplies as required in the Peace Corps
                     manual.


Disposed medical supplies were not documented in accordance with agency policy.

Per PCM section 511.8.8:

        Certified documentation should be kept by the office to support
        destruction action and recorded on the appropriate inventory record card.
        Under no circumstances will medicines be donated to any organizations
        because liability issues may arise from tainted or expired medical supplies.

Prior to January 2008, the post's medical unit did not appropriately document the disposal
of medical inventory. The medical assistant stated that since she began working for
Peace Corps in October 2005, she has been consistently transporting expired medical
supplies to the local clinic for incineration. According to the medical assistant the
expired supplies were disposed in the presence of a physician. However, she did not
begin preparing a listing to document disposal of the items or obtain the physician’s
signature as a witness until January 2008.

Because the post did not have disposal records signed by a witness prior to 2008, there is
no documentary evidence that the medical office followed appropriate procedures and
that the medical inventory was disposed of in accordance with Peace Corps policies.


                 We recommend:

                 15. That the country director ensure that the medical unit
                     consistently document the proper disposal of medical
                     inventory in accordance with Peace Corps policy.




Final Audit Report: Peace Corps/Swaziland                                                   11
VEHICLE MANAGEMENT

The post's Vehicle Status Report contained inaccurate fuel consumption data and
other data inconsistencies.

The agency's Vehicle Fleet Management Guide (referenced in PCM section 527.5.6)
contains instructions to posts for the completion and submission of the annual Vehicle
Status Report (VSR). The report requires vehicle-specific information, including
kilometers driven, number of gallons of fuel consumed, and average price per gallon (in
US dollars).

We found several numbers reported in the post’s 2007 VSR that were unreasonable and
appeared to be inaccurate. For example, the average price of fuel per gallon was reported
as $25.

The motor pool coordinator, who prepared the report, agreed that certain conversions
from liters to gallons or local currency to U.S. dollars had been overlooked or calculated
incorrectly.

We determined that the post overstated their “number of gallons used” on their 2007 VSR
by approximately 280%. Fuel consumption and other related data that is reported on the
VSR is used by the Office of Overseas Building Operations in completing a periodic
report required by the U.S. General Services Administration and Department of Energy.


                 We recommend:

                 16. That the administrative officer ensure that accurate
                     VSRs are submitted to the Office of Overseas Building
                     Operations.


TRAVEL

Travel authorization amendments were not issued in accordance with Peace Corps
policy.

OFMH sections 57.2 and 60.1.2 instruct posts to amend each quarterly authorization to
extend the period of travel and to serve as the basis for increasing the obligations.

Rather than creating a separate document for each travel authorization amendment, the
post made edits to the electronic version of the original travel authorization. In some
cases, the post was unable to provide the original printed travel authorization from the
files.




Final Audit Report: Peace Corps/Swaziland                                                  12
Travel authorization amendments are individual documents. By overriding initial travel
authorizations, the post was in effect destroying original documents. Without complete
travel documentation on file, it is difficult to monitor compliance with Peace Corps and
federal travel policy and unnecessarily exposes the agency to the potential for fraud,
waste, and abuse.


                 We recommend:

                 17. That the administrative officer ensure that post staff
                     create travel authorization amendments as separate
                     documents and maintain file copies.


Travel vouchers were not submitted timely.

OFMH section 57.6 states that it is the responsibility of the traveler to personally prepare
his/her travel voucher within five days of completion of the travel. The post
administrative unit is required to review and approve travel vouchers.

Seven of 26 travel obligations we reviewed included several travel vouchers that were
submitted more than five days after return from travel.

Vouchers must be submitted timely in order to reimburse staff for their travel expenses,
to clear debts from interim cash advances for travel and to more effectively manage the
travel budget.


                 We recommend:

                 18. That the country director enforce Peace Corps policies
                     regarding the timely submission of travel vouchers.


PURCHASE CARD

Purchases made with the post’s purchase card were not approved before they were
made.

OFMH section 45.4 requires that the approving official approve purchases before the
purchase card is used.

The administrative officer is the designated purchase cardholder and the country director
is the approving official. The cardholder stated that she did not seek approval before
purchases were made.




Final Audit Report: Peace Corps/Swaziland                                                  13
There was no supervisory review of the purchases until after they were made. Without
the control requiring a pre-approval of all purchases made with the purchase card, there is
the risk that the purchase cardholder could misuse the card and purchases will be made
which the country director would not have approved.


                 We recommend:

                 19. That the cardholder receive signature authorization
                     from the approving official before purchases are made
                     on the purchase card in accordance with Peace Corps
                     policy.


TIMEKEEPING

A supervisor did not create time sheets for a PSC.

PCM section 742.5.3 states that it is a staff person's responsibility to record his time daily
on an individual time certification sheet.

We determined through review of the post’s timekeeping process that time sheets had not
been prepared for one personal services contractor (PSC) assigned as a driver. The motor
pool coordinator, responsible for creating the time sheets of the drivers, thought that time
sheets were not required because the PSC was within his new hire 90-day probationary
period. He maintained a separate system for tracking the driver's time and stated that he
planned to begin creating time sheets when a full contract was signed. The
administrative officer stated that she was unaware that timesheets were not being created
for this PSC.

The submission of timesheets is required for time and attendance recording and reporting
to ensure that the preparation of payroll is accurate and timely.


                 We recommend:

                 20. That the administrative officer ensure that a timesheet is
                     created for each staff member, regardless of contract
                     status, in accordance with Peace Corps policy.


Supervisors did not review PC-57s semiannually.

PCM section 742.6.1 states:
        Each leave record (PC-57) shall be routinely reviewed for accuracy by the
        supervisor as of June 15th and December 15th of each leave year and


Final Audit Report: Peace Corps/Swaziland                                                   14
        audited by the timekeeper at the end of each leave year or upon an
        employee's termination or transfer.

The country director did not review and sign the U.S. direct hires’ PC-57s at the post for
the semiannual period ending December 15, 2007. In addition, for the same reporting
period the regional director, as the country director's supervisor, did not sign the country
director's PC-57 signifying it was reviewed.

The required semiannual review provides supervisors an opportunity to review all time
sheets within each six-month period for accuracy. In addition, when leave balances are
confirmed semiannually, the scope of employment termination leave audits only require
review of the time period since the previous semiannual review.


                 We recommend:

                 21. That the country director and regional director review
                     PC-57s in accordance with agency policy.


PERSONAL SERVICES CONTRACTS

PSC files did not contain intelligence background information certification forms.

PCM section 743.8.1 states:

        Personal Services Contractors are subject to the policy and eligibility
        standards set forth in Peace Corps Manual Section 611 concerning
        eligibility of applicants with intelligence backgrounds. … Prospective
        PSCs are required to complete the Intelligence Background form provided
        as Attachment A to Manual Section 611, in addition to being certified
        through the appropriate security clearance process.

None of the five PSC files reviewed contained completed intelligence background
information certification forms.

The administrative officer stated that she was unfamiliar with this form and the
requirement that it be completed. During the course of the audit, the administrative
officer found that some signed forms were kept with the Safety and Security Coordinator
(SSC); however, the file contained only forms for staff on board as of March 2007. Four
of the five PSC files reviewed contained signed forms kept by the SSC; a fifth PSC
subsequently signed the form.

It is important for Peace Corps to obtain and maintain completed intelligence background
information certification forms for all prospective PSCs because agency policy dictates
that individuals who have prior connections with intelligence activities through



Final Audit Report: Peace Corps/Swaziland                                                  15
employment, related work, or even family relations may be ineligible for a personal
services contract.


                 We recommend:

                 22. That the country director ensure that all staff members
                     have completed intelligence background information
                     certification forms in accordance with Peace Corps
                     policy, and that they be included in their files.




Final Audit Report: Peace Corps/Swaziland                                             16
                                    OTHER MATTERS

During interviews with regional headquarters staff, post staff, and the U.S. Ambassador
to Swaziland, we noted that the current limitation of office space for PC/Swaziland is a
common major concern. The post is currently operating rent-free in a former residence
owned by the U.S. Embassy. However, post staffing has outgrown the facility and there
are not enough offices or cubicle space for all staff members. Staff members have had to
share cramped offices and use the conference room as permanent work space.

However, the situation is not easily remedied. Because the property is owned by the
Embassy, Peace Corps would have to follow State Department practices and abide by
State Department regulations if they were to expand the office within the current
compound, including receiving approval from the State Department Office of Overseas
Building Operations. In addition, funds from the region would be required for the
expansion. Alternatively, the Peace Corps would lose the fiscal benefit of rent-free use at
the current location if it were to lease a larger facility outside the compound.

The country director stated that resolution of this issue was her highest priority.
Although several possible solutions have been suggested, to date a resolution has not
been reached.




Final Audit Report: Peace Corps/Swaziland                                                17
                                      POST STAFFING
At the time of our visit, the post had 19 staff positions: three U.S. direct hire employees,
two foreign service nationals, and 14 personal services contractors.

We interviewed 7 staff, including two U.S. direct hires and the Peace Corps Medical
Contractor. They all stated that they very much enjoyed working for the Peace Corps.

                                 PC/Swaziland’s Positions
                                Position                         Status
                Country Director                                 USDH
                Receptionist/Executive Secretary                  PSC
                Administrative Officer                           USDH
                APCD/Health                                      USDH
                APCD/Health                                       PSC
                PEPFAR Technical Coordinator                      PSC
                Program Assistant                                 PSC
                Financial Assistant                               FSN
                General Services Assistant                        PSC
                Cashier                                           FSN
                IT Specialist                                     PSC
                Driver/Messenger (2)                              PSC
                Motor Pool Coordinator                            PSC
                Peace Corps Medical Officer                       PSC
                Medical Assistant                                 PSC
                Safety and Security Coordinator                   PSC
                Training Manager                                  PSC
                Language and Cross-Culture
                                                                   PSC
                Coordinator




Final Audit Report: Peace Corps/Swaziland                                                  18
                         LIST OF RECOMMENDATIONS

We recommend:

    1. That the administrative officer ensure that all obligations are recorded before the
       related expenditure of funds takes place.

    2. That the administrative officer ensure that all obligations and de-obligations are
       supported by fully documented calculations, written explanations, and other
       support.

    3. That the administrative officer follow the established Peace Corps policies and
       procedures for closing out the finances of Volunteers terminating service out of
       country.

    4. That the administrative officer transfer the responsibility for issuing follow-up
       bills for unpaid BOCs older than 30 days from the cashier to the billing officer in
       accordance with OFMH section 7.2.1.

    5. That the administrative officer document, in a memorandum to the host country
       contribution file, the basis for valuation of in-kind host country contributions as
       presented in the FY 2009 Operations Plan.

    6. That the country director request that a representative of the Embassy regional
       security office provide training to ensure that the cashier is proficient in changing
       the safe combination.

    7. That the cashier obtain lockable cash boxes to secure both U.S. and local
       currencies used in the operation of the imprest fund.

    8. That the administrative officer segregate the duties of maintaining the inventory
       records and conducting the annual physical inventory count and verification.

    9. That the country director ensure that the post follow Peace Corps policy regarding
       implementation of controls over the issuance of Peace Corps property to
       Volunteers and staff.

    10. That the PCMO establish and implement a written policy regarding counting open
        containers.

    11. That the PCMO ensure that the inventory listing is updated, including making
        entries on a new page to reflect different descriptive identifiers in cases where
        new items received will replace existing items.

    12. That the PCMO establish a single accurate and complete inventory listing.


Final Audit Report: Peace Corps/Swaziland                                                    19
    13. That the country director or designee consistently perform monthly medical
        inventory counts.

    14. That the country director or designee outside of the medical office conduct the
        monthly inventory counts of medical supplies as required in the Peace Corps
        manual.

    15. That the country director ensure that the medical unit consistently document the
        proper disposal of medical inventory in accordance with Peace Corps policy.

    16. That the administrative officer ensure that accurate VSRs are submitted to the
        Office of Overseas Building Operations.

    17. That the administrative officer ensure that post staff create travel authorization
        amendments as separate documents and maintain file copies.

    18. That the country director enforce Peace Corps policies regarding the timely
        submission of travel vouchers.

    19. That the cardholder receive signature authorization from the approving official
        before purchases are made on the purchase card in accordance with Peace Corps
        policy.

    20. That the administrative officer ensure that a timesheet is created for each staff
        member, regardless of contract status, in accordance with Peace Corps policy.

    21. That the country director and regional director review PC-57s in accordance with
        agency policy.

    22. That the country director ensure that all staff members have completed
        intelligence background information certification forms in accordance with Peace
        Corps policy, and that they be included in their files.




Final Audit Report: Peace Corps/Swaziland                                                    20
APPENDIX A

            OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and comply with Peace Corps
policies and federal regulations. Our audit conclusions are based on information from
three sources: (1) document and data analysis, (2) interviews, and (3) direct observation.
Our audits are conducted in accordance with the government auditing standards
prescribed by the Comptroller General of the United States.

The audit of Peace Corps/Swaziland covered fiscal years 2006, 2007, and 2008 through
May 31, 2008. While at the post, we interviewed key staff: the country director, the
administrative officer, staff responsible for administrative support, and the medical
officer. At the end of our audit, we briefed the country director and administrative team.
At headquarters, we conducted a general briefing for regional staff.

We relied on computer-processed data from the post’s accounting system. While we did
not test the system’s controls, we believe the information generated by the system and
used by us was sufficiently reliable for our audit objective.

Our audit criteria were derived from the following sources: the Peace Corps Manual, the
Overseas Financial Management Handbook, current Peace Corps initiatives and policies,
and other federal regulations.
APPENDIX B

             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
To:            Kathy A. Buller, Inspector General

From:          Henry McKoy, Director, Africa Region

Date:          November 18, 2008

Subject:       Amended Response to the Preliminary Report on the Audit of Peace
               Corps/Swaziland conducted in June 2008


The Africa Region thanks the Office of the Inspector General for the Preliminary Report on the
Audit of Peace Corps/Swaziland. Post is very appreciative of the feedback presented through this
audit.

Attached please find our amended response to the OIG report on Peace Corps Swaziland.
Post’s responses have been reviewed and integrated into this response. The Africa Region
will continue to work with Peace Corps Swaziland’s staff to ensure full implementation of the
OIG recommendations.

Please let me know if you have any questions or comments on any of our responses. Region
greatly appreciates your guidance and support as the actions taken to respond to the
recommendations presented in this report are fully implemented.


Attachments


cc:        David Liner, Chief of Staff
           Michelle Brooks, Deputy Chief of Staff/Operations
           Nwando Diallo, Country Director
           John Dimos, Chief Compliance Officer
Preliminary Audit Report Recommendations – PC/Swaziland


1. That the administrative officer ensures that all obligations are recorded before the
   related expenditure of funds takes place.

   Concur.

   Since the audit, Post is ensuring that all obligations are recorded before the related
   expenditure of funds takes place. Post understands that this recommendation was made
   primarily in conjunction with travel (both staff and Volunteers) so both staff and
   Volunteer obligations have been attached as supporting documentation. In the attached
   examples (Attachment 1) as supporting documentation, the staff travel was obligated
   prior to the travel date and the Volunteer travel was estimated and obligated for
   processing with a monthly living allowance check request. In the past (also in
   Attachment 1), Post would process travel reimbursements after the travel had already
   occurred with living allowance check requests so the amount obligated in the past was the
   exact amount calculated based on past travel instead of an estimation of future travel.

2. That the administrative officer ensures that all obligations and de-obligations are
   supported by fully documented calculations, written explanations, and other support.

   Concur.

   Since the audit, Post has made significant improvements in ensuring that all obligations
   and de-obligations are supported by fully documented calculations, written explanations
   and other support. Copies of three different types of fully documented obligations are
   attached as supporting documentation (Attachment 2).

3. That the administrative officer follow the established Peace Corps policies and
   procedures for closing out the finances of Volunteers terminating service out of
   country.

   Concur.

   Post has instituted the same close-out procedures for Volunteers who terminate service
   out of the country, as for those who terminate in country. The Finance Assistant has been
   designated to complete a bank close out and reconcile finances. Since the audit visit, Post
   had one such case: Volunteer was medically evacuated to Pretoria and subsequently COS-
   ed from there. Copies of the Volunteer’s COS checklist and cable, as well as the e-mail
   to the Finance Assistant transferring those responsibilities are attached as supporting
   documentation (Attachment 3).




                                                                                              2
4. That the administrative officer transfer the responsibility for issuing follow-up bills
   for unpaid BOCs older than 30 days from the cashier to the billing officer in
   accordance with OFMH section 7.2.1.

   Concur.

   On 24 September, 2008, the Administrative Officer officially transferred the
   responsibility for issuing follow up bills for unpaid BOCs older than 30 days from the
   Cashier to the Billing Officer in accordance with OFMH section 7.2.1 (although the
   Finance Assistant unofficially assumed this responsibility immediately following the IG
   visit in July). This responsibility was assumed and acknowledged by the Billing Officer.
   A copy of the e-mail is attached as supporting documentation (Attachment 4).

5. That the administrative officer document, in a memorandum to the host country
   contribution file, the basis for valuation of in-kind host country contributions as
   presented in the FY 2009 Operations Plan.

   Concur.

   During the IG Audit, the former Administrative Officer (now the Country Director),
   documented in a memorandum to the Host Country file, the basis for valuation of in-kind
   host country contributions presented in the FY 2008 Operations Plan. Additionally, the
   current Administrative Officer, similarly documented in a memorandum to the Host
   Country file, the basis for valuation of in-kind host country contributions presented in the
   FY 2009 Operations Plan. Post will continue to document its basis for valuation of in-
   kind host country contributions each year during the development of the Operations Plan.
   Copies of the FY08 and FY09 memoranda are attached as supporting documentation
   (Attachment 5).

6. That the country director request that a representative of the Embassy regional
   security office provide training to ensure that the cashier is proficient in changing
   the safe combination.

   Concur.

   There is no local company that deals with safes therefore; the Embassy RSO coordinates
   2-3 trips by South African security specialists who change/fix safes and complicated
   locks annually. The team refuses to train citing company security breaches. The RSO,
   the Embassy Cashier, nor the Peace Corps Cashier knows how to change safe
   combinations. Post also called Peace Corps South Africa, Peace Corps Mozambique and
   Peace Corps Botswana – all three concurred that their Cashiers cannot and do not change
   their safes. An outside vendor always does it.

   After speaking with the RSO, in case of a breach and when the safe combination needs to
   be changed immediately, Peace Corps can commission the Pretoria-based agency to come
   in and reset the safe combination(s). Peace Corps benefits by getting the service for
   free by piggy-backing onto the Embassy's schedule. Peace Corps can engage this
   company at any time, for a fee, should the need arise.




                                                                                              3
   In November 2007, Post changed the safe combinations for the cashier’s safe, the
   Cashier’s door and the Administrative Officer’s safe. Post will continue to work closely
   with the RSO to change safe combinations regularly, in accordance with regulations.

7. That the cashier obtains lockable cash boxes to secure both U.S. and local currencies
   used in the operation of the imprest fund.

   Concur.

   On 26 September 2008, Post issued a work order to a local company (referred by the RSO
   at the US Embassy) to replace the front panels of the two existing internal safes and equip
   them with new locks (previously, the locks did not work) to secure both U.S. and local
   currencies used in the operation of the imprest fund. The job was completed on October
   14 and the Cashier has been using the safe since then in accordance with regulations.
   Copies of the photos (before and after) are attached as supporting documentation
   (Attachment 7).

8. That the administrative officer segregates the duties of maintaining the inventory
   records and conducting the annual physical inventory count and verification.

   Concur.

   Post has segregated the duties of maintaining the inventory records and conducting the
   annual physical inventory count and verification. The Motor Pool Coordinator is now
   responsible for conducting the annual physical inventory count and verification (except
   for the IT equipment), the IT Specialist is now responsible for conducting the annual IT
   equipment count and verification, and the GSA is now responsible for maintaining the
   database and inventory records. These changes have also been reflected in all three job
   descriptions of the staff members involved. Copies of the e-mail memo and the updated
   job descriptions are attached as supporting documentation (Attachment 8).

9. That the country director ensures that the post follows Peace Corps policy regarding
   implementation of controls over the issuance of Peace Corps property to Volunteers
   and staff.

   Concur.

   Post has implemented proper check out procedures, in accordance with Peace Corps
   policy, to ensure adequate controls are in place when issuing Peace Corps property to
   Volunteers and staff. All Volunteers and staff are now required to sign a check out log
   following the receipt of Peace Corps property. Copies of the e-mail memo effecting these
   changes, as well as the check out logs for IT, language and medical equipment are
   attached as supporting documentation (Attachment 9).




                                                                                              4
10. That the PCMO establish and implement a written policy regarding counting open
    containers.

   Concur.

   Post’s PCMO has established and implemented a written policy regarding counting open
   containers. This written policy went into effect on October 8 and is posted in the
   pharmacy of the medical unit. A copy of the written policy is attached as supporting
   documentation (Attachment 10).

11. That the PCMO ensure that the inventory listing is updated, including making entries
    on a new page to reflect different descriptive identifiers in cases where new items
    received will replace existing items.

   Concur.

   Since the audit, Post has updated its medical inventory listing to include new page entries
   to reflect different descriptive identifiers in cases where new items received replace or
   substitute for existing items. This allows for proper tracking of each medication, by
   brand, manufacturer and dosage. Copies of two examples (for the various Gelusil
   Antacid tablets and Tetanus vaccines) of newly created entries in accordance with Peace
   Corps policy, as well as the old non-compliant entries are attached as supporting
   documentation (Attachment 11).

12. That the PCMO establish a single accurate and complete inventory listing.

   Concur.

   Since the audit, the Post has consolidated its various medical inventories into one single
   accurate and complete inventory listing, in accordance with Peace Corps policy. A copy
   of this comprehensive listing has been express mailed (it was too large to scan) to the
   CDU for onward submission to the Inspector General’s office as supporting
   documentation (Attachment 12).

13. That the country director or designee consistently perform monthly medical inventory
    counts.

   Concur.

   Since November 2008, the Country Director has consistently performed monthly medical
   inventory counts, and will continue to do so in accordance with Peace Corps policy.
   Copies of the signed medical inventory logs are attached as supporting documentation
   (Attachment 13).




                                                                                                5
14. That the country director or designee outside of the medical office conducts the monthly
    inventory counts of medical supplies as required in the Peace Corps manual.

   Concur.

   Since the audit, the Country Director has designated a non-medical employee (the
   Cashier) to conduct the monthly medical inventory counts. The Cashier conducted her
   first full monthly medical inventory count in November 2008 after being trained for the
   task in October. During these monthly medical inventory counts, the Cashier is officially
   designated as the counter, while the Medical Assistant is officially designated as the
   recorder. Copies of the memo and signed inventory logs (for narcotics, pharmaceuticals,
   and supplies) are attached as supporting documentation (Attachment 14).

15. That the country director ensures that the medical unit consistently documents the
    proper disposal of medical inventory in accordance with Peace Corps policy.

   Concur.

   To comply with Peace Corps policy, post now requires the PCMO to count, document
   and sign the medical inventory disposal log at the time when medical supplies are being
   identified for expiration and disposal. This will ensure that the quantity of medication
   identified for disposal is what is actually disposed of by the Mbabane Clinic Senior
   Medical Officer or his/her designee. Copies of a recent disposal, consistent with Peace
   Corps policy, using the new form that captures both the PCMO and the Clinic’s Senior
   Medical Officer or his/her designee are attached as supporting documentation,
   (Attachment 15).

16. That the administrative officer ensures that accurate VSRs are submitted to the Office
    of Overseas Building Operations.

   Concur.

   Following this audit finding, the Administrative Officer and the Motor Pool Coordinator
   reviewed and corrected the inaccuracies reflected in the 2007 Vehicle Status Report
   (VSR). Coincidentally, the 2008 VSR was due after the audit and was completed
   accurately by the Motor Pool Coordinator and verified by the Administrative Officer per
   the audit findings. Copies of Post’s completed 2007 and 2008 VSRs have been included
   as supporting documentation (Attachment 16).

17. That the administrative officer ensures that post staff create travel authorization
    amendments as separate documents and maintain file copies.

   Concur.

   Following the audit, Post is ensuring that travel authorization amendments are created as
   separate documents and maintained as file copies. Copies of the memo documenting and
   initiating these changes, as well as an amended travel authorization created as a separate
   document are attached as supporting documentation (Attachment 17).




                                                                                              6
18. That the country director enforces Peace Corps policies regarding the timely submission
    of travel vouchers.

   Concur.

   For all travel that has taken place since the audit visit, travelers have submitted travel
   vouchers within five working days after completion of travel. The Finance Assistant
   (FA) will send reminders to staff who have traveled to submit their travel voucher within
   5 days. If the traveler misses the 5 day deadline, the FA will notify the Country Director.
   Copies of a travel voucher turned in timely since the audit and a copy of the e-mail
   detailing this new notification system have been included as supporting documentation
   (Attachment 18).

19. That the cardholder receives signature authorization from the approving official before
    purchases are made on the purchase card in accordance with Peace Corps policy.

   Concur.

   For all purchases made on the purchase card since the audit visit, the cardholder has
   received signature authorization from the approving official before the purchases were
   made. The cardholder (i.e. the Administrative Officer) will continue to receive signature
   authorization from the approving official before any purchases are made on the purchase
   card, in accordance with Peace Corps policy. Copies of signature authorizations in the
   purchase card log for all such purchases (i.e. prior to actual purchase) have been included
   as supporting documentation (Attachment 19).

20. That the administrative officer ensure that a timesheet is created for each staff member,
    regardless of contract status, in accordance with Peace Corps policy.

   Concur.

   During the IG audit, a timesheet for the one staff member still in his probation period was
   created. Currently, all staff members have timesheets. The Receptionist/Executive
   Assistant will ensure that all new staff members have time sheets even during their
   probationary period. A copy of the timesheet of the new driver (who was in probationary
   status during the audit) has been included as supporting documentation (Attachment 20).

21. That the country director and regional director review PC-57s in accordance with
    agency policy.

   Concur.

   The Country Director has signed all PC-57 forms for staff for the period ending June 15,
   2008 and has also secured the signature of the Regional Director for her own PC-57.
   Copies of the jointly signed PC-57 for the Country Director and the two US Direct Hires
   ending June 15, 2008, are attached as supporting documentation (Attachment 21).




                                                                                              7
22. That the Country Director ensures that all staff members have completed intelligence
    background information certification forms in accordance with Peace Corps policy, and
    that they be included in their files.

   Concur.

   Post has ensured that all staff members have completed intelligence background
   information certification forms in accordance with Peace Corps policy, and they have
   been included in each staff member’s personnel file. Additionally, Post has added this
   actionable item to its PSC Checklist (attached to every PSC file folder) to ensure it gets
   completed with the addition of any new staff. Copies of completed intelligence
   background information certification forms for all 18 current staff members and copies of
   the updated PSC Checklist have been included as supporting documentation (Attachment
   22).




                                                                                            8
APPENDIX C

                               OIG COMMENTS

Management concurred with all 22 recommendations made in our report.

We closed recommendations numbers 1 – 7, 9 – 11, 13, and 15 – 22. Recommendation
numbers 8, 12, and 14 remain open pending confirmation from the chief compliance
officer that the following has been received:

   •   For recommendation number 8, a copy of a memorandum stating that someone
       without access to inventory records has been assigned responsibility for conduct of
       the annual physical inventory verification.
       Management’s response states that the IT specialist would be responsible for
       performing the physical inventory for all IT equipment. However, since the IT
       specialist would also have access to the post’s electronic inventory records,
       segregation of duties in the handling of the post’s property inventory has not been
       fully achieved. As a result, we request that the Post designate responsibility for
       conducting the annual physical inventory for all property, including IT equipment,
       to the Motor Pool Coordinator. Such designation would ensure that the person
       responsible for conducting the physical inventory is also not responsible for
       inventory recordkeeping.

   •   For recommendation number 12, a copy of the complete medical inventory listing
       including pharmaceuticals and supplies.

   •   For recommendation number 14, a copy of an inventory signature log showing that
       non-medical unit staff has counted and recorded the monthly medical supplies
       inventory.
       Management’s response states that the cashier is officially designated as the
       counter, while the medical assistant is officially designated as the recorder.
       However, since the medical assistant would also have access to the post’s medical
       inventory records, segregation of duties in the handling of the post’s medical
       inventory has not been fully achieved. As a result, we request that the Post
       designate responsibility for conducting and recording the monthly physical
       inventory for medical supplies to staff outside of the medical unit. Such
       designation would ensure that no one responsible for conducting the physical
       inventory count, including recording, is also responsible for inventory
       recordkeeping.

In their response, the management describes actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that they have taken these actions nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.
APPENDIX D

             AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION
The audit was performed by auditor Elizabeth Palmer.


OIG CONTACT
If you wish to comment on the quality or usefulness of this report to help us strengthen
our product, please e-mail Gerald P. Montoya, Assistant Inspector General for Audit, at
gmontoya@peacecorps.gov, or call him at (202) 692-2907.
          REPORT FRAUD, WASTE, ABUSE,
             AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, and abuse related to Peace Corps
operations domestically or abroad. You can report allegations to
us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  (800) 233-5874
               Washington Metro Area:              (202) 692-2915


Fax:           (202) 692-2901

E-Mail:        oig@peacecorps.gov
